                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-36                                    Office of Inspections                                       June 2013




                   Inspection of
     the Bureau of Consular Affairs, Office of
                 the Comptroller




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                                 i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                                 ii
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                              Table of Contents
Key Judgments                                              1
Context                                                    2
Executive Direction                                        3
  Leadership                                               3
  Organizational Structure and Responsibilities            3
  Staffing                                                 4
  Morale                                                   5
  Equal Employment Opportunity                             5
Resource Management                                        6
  Financial Management                                     6
  Procurement Policy and Oversight                         7
  Strategic Policy and Planning                            8
Management Controls                                       10
List of Recommendations                                   11
List of Informal Recommendations                          12
Principal Officials                                       13
Abbreviations                                             14
Appendix: FY 2012 Consular Fees Collected and Allocated   15




                                           iii
                       SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
   In its short history, the Bureau of Consular Affairs, Office of the Comptroller (CA/C) has
    been plagued by insufficient and unevenly trained staff, interpersonal difficulties, and an
    uncertain mission.

   Some of the roles and responsibilities of CA/C, particularly regarding contracting oversight
    and management controls policy, are not sufficiently clear to stakeholders and employees.

   The over $2.5 billion Border Security Program (BSP) does not have a designated program
    manager; this deficiency diffuses responsibility for program oversight and administration.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 14 and March 15, 2013.
[Redacted] (b) (6)
                                                                            conducted the
inspection with the assistance of [Redacted] (b) (6)




                                         1
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context
        The Bureau of Consular Affairs (CA) established the Office of the Comptroller (CA/C) in
2011 to account more closely for and manage funds retained from consular fee collections. In
establishing the new office, CA transferred responsibility for resource and financial management
from its Executive Directorate (CA/EX) and moved part of strategic planning from its Office of
Policy Coordination and Public Affairs to CA/C. The bureau also added procurement policy and
oversight to CA/C.

       In its first 2 years CA/C experienced turnover in several key positions and filled fewer
than half its 46 authorized positions. Employee surveys in both CA/C and CA/EX, as well as
among customers of the two offices, document lack of understanding of CA/C’s mission and
confusion about its relationships with other parts of CA and within the Department of State
(Department). Beginning in October 2012, the CA Assistant Secretary charged an acting
comptroller with filling vacant positions as one of her top three priorities.

        A 2012 OIG audit1 determined that the Department did not have a centralized program
management structure for managing the Border Security Program (BSP) and that CA did not
exercise authority to oversee all aspects of the program. The audit concluded that roles and
responsibilities were not defined clearly and that there was neither sufficient guidance on the use
of the funds nor adequate monitoring of expenditures. CA/C is in the process of negotiating
service level agreements with bureaus that receive border security funding as a means of exerting
control over BSP resources, which is another of the Assistant Secretary’s top three priorities for
CA/C.

        The final of the three priority tasks for the office is to complete an update to the Cost of
Service Model that serves as the basis for setting prices for consular services, such as passports
and visas. The office also recoups the cost of services that CA provides on behalf of other U.S.
Government agencies under the Economy Act of 1932.2 CA was among the bureaus selected to
pilot a new functional Bureau Resource Request in 2012,3 and CA/C is working to update the
model based on lessons learned in the pilot.

       This inspection is the first for CA/C. OIG last inspected the Financial Management
Division in 2005, when it was part of CA/EX. At that time, CA managed approximately $700
million in BSP spending. In 2012, the spending plan was $2.5 billion.




1
  Audit of Department of State Use of Consular Fees Collected in Support of the Border Security Program, AUD-
FM-12-39, August 2012.
2
  31 U.S.C. Section 1535, as amended.
3
  In December 2011, the Department issued 11 STATE 124737, which discontinued the Bureau Strategic and
Resource Plan. The Bureau Resource Request (three-year strategic plans, with shorter annual resource requests)
replaces the Bureau Strategic and Resource Plan beginning with the FY 2014 budget cycle.

                                            2
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
Leadership

       In October 2012 the acting comptroller, a GS-15 Civil Service officer, assumed charge of
CA/C, which was plagued by insufficient and unevenly trained staff, interpersonal conflict, and a
poorly understood mission. Against the backdrop of this difficult environment, the inspectors
found the acting comptroller was focusing rightly on the directorate’s most pressing problems
first.

        The inspection period coincided with the acting comptroller’s completion of 120 days on
the job. During a CA/C all hands meeting to review the state of the office, she explained her role
as one of trying both to establish a vision from the top and to bring better structure and
foundation from the bottom. She cited the CA Assistant Secretary’s three initial priorities for her:
completing the Cost of Service Model, filling vacant positions, and establishing service level
agreements with other Department bureaus. The acting comptroller credited staff with having
made progress on all three priorities but noted the need for CA/C divisions and other parts of CA
to work better together and to establish a clearly defined lead division for each project. In OIG
surveys, the acting comptroller received high marks from staff for providing structure and
organization to the office.

Organizational Structure and Responsibilities

          The inspection team found no evidence of a transition plan or a change management
initiative to facilitate the transfer of responsibilities for some CA/EX functions to CA/C when the
bureau formed the latter in 2011. Employees in both directorates indicate that CA/C did not get
off to a good start. Although relations between CA/C and CA/EX are improving, the relationship
is still evolving, with survey respondents noting confusion and continued lack of coordination
between the two directorates.

        One of the thorniest of the joint CA/C-CA/EX issues is how to divide roles and
responsibilities for the contracting process. CA/C has oversight responsibility for every CA
contract. At the same time, CA/EX manages most domestic CA contracts, whereas other
directorates, including Consular Systems and Technology and Passport Services, manage some
of their own. Within these broad parameters, CA/C and CA/EX continue to grapple with the
division of roles and responsibilities, including administration of the Global Support Strategy
(GSS), a 10-year contract with a maximum value of $2.8 billion that provides visa application
support services to consular sections overseas. The CA Assistant Secretary stated that her
decisions in response to a December 13, 2011, joint CA/C-CA/EX memorandum should govern
their division of contracting responsibilities. In the memorandum she decided that CA/C would
refrain from serving as contracting officer’s representative (COR) for any contract over which
the office also exercises oversight (except GSS, which would be addressed separately). The
Assistant Secretary directed the two offices to work together in delineating and implementing
their respective contracting roles expeditiously.

       CA’s Procurement Policy and Oversight Division (CA/C/PPOD) has responsibility for
pre-award contract review and approval; compliance with the Department’s Acquisition

                                        3
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Regulations, Foreign Affairs Manual (FAM), and the Federal Acquisition Regulation;
coordinating vendor outreach; monitoring interagency agreements; forecasting needs for bureau
contracts; and management of the GSS contract. However, many customers are unaware of
CA/C/PPOD’s role in contract oversight. Clearly defined, publicized roles and responsibilities
are essential to efficient operations, customer satisfaction, and employee morale.

Recommendation 1: The Bureau of Consular Affairs should crosswalk all tasks over which the
resource offices share responsibility, or those where responsibility has shifted from one office to
the other, and communicate these roles to stakeholders and customers. (Action: CA)

Border Security Program Management

        In its 2012 audit, OIG recommended that CA formalize its authority over the BSP and
develop clear roles and responsibilities for all parties involved in the program. All three CA/C
divisions manage certain aspects of the BSP: the Financial Management Division (CA/C/FMD)
is responsible for budget execution and formulation; the Strategic Policy And Planning Division
(CA/C/SPPD) for strategic planning and consular fee setting; and CA/C/PPOD for financial
oversight and compliance. CA/C is in the process of negotiating service level agreements with
bureaus receiving BSP funds in order to comply with several audit recommendations, including
developing and implementing a comprehensive monitoring process that entails periodic reviews
of BSP expenditures.

        The bureau assigned CA/C/PPOD to negotiate the agreements, ostensibly because that
office would have oversight responsibility for compliance. Based on analysis of the approved
justification for establishing CA/C, the OIG inspection team concluded that it would be more
appropriate for CA/C/SPPD to perform this function.

       Informal Recommendation 1: The Bureau of Consular Affairs should assign to the
       Strategic Policy and Planning Division responsibility for negotiating and maintaining
       service level agreements with other Department of State bureaus for the use of border
       security funds.

       CA has not designated a program manager for the BSP but has established a Foreign
Service deputy comptroller position that it has not yet advertised or filled. A program of the size
and complexity of the BSP would benefit from an experienced senior-level manager to provide
programwide oversight.

Recommendation 2: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should reprogram the deputy comptroller position to that of a program
manager for the Border Security Program. (Action: CA, in coordination with DGHR)

Staffing

        With the recent arrival of two new division directors, CA/C is beginning to define
responsibilities for and fill many of its vacant positions. In doing so, it is important for CA/C not
to duplicate the responsibilities of the CA/EX post management analysts, who serve as the
primary point of contact for overseas consular managers. Collaboration between CA/C and
CA/EX officers is the best way to ensure that posts receive accurate and timely guidance.
                                         4
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         In the past 2 years, frequent turnover in CA/C/FMD has increased the workload of senior
staff, leaving them unable to provide adequate guidance and direction to newly hired and
inexperienced employees. CA/C has begun to address this issue, but the inspection team
identified several areas that need immediate attention.

       The OIG team’s review of CA/C/FMD position descriptions determined that two of the
three management analysts assigned to the division perform budget analyst duties. The position
description for one of the employees indicates assignment to another division. The inspection
team raised these discrepancies with the acting comptroller. CA/C is reviewing its positions to
improve distribution of duties and assign backups and will request CA/EX to update position
descriptions as necessary.

        During the inspection, the acting comptroller and the CA/C/FMD director were
considering reallocation of duties among all CA/C/FMD employees and converting a vacant FS-
02 position to a GS-14 supervisory budget analyst position to oversee budget formulation and
financial management overseas. The inspection team agrees with this approach, which would
allow the division director to manage the division overall while delegating more to her
subordinates.

       Informal Recommendation 2: The Bureau of Consular Affairs should structure staff in
       the Financial Management Division to include a GS-14 supervisory budget analyst with
       responsibility for budget formulation and the overseas portfolio.

Morale

       Morale varies in this mixed office of Civil Service employees, Foreign Service officers,
and contractors. Employees with good morale tend to express a sense of purpose about their
work and their belief that CA/C is improving under its new leadership. Employees with low
morale continue to cite the issues that have beset CA/C since its inception.

Equal Employment Opportunity

       Information on the program is posted in the building currently occupied by CA/C and
CA/EX. Preinspection survey material showed employees believe CA to be alert to possible
discrimination.




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
Financial Management

        CA/C/FMD is responsible for managing CA’s budget and coordinating allocation of BSP
funds to other bureaus that share responsibility for the BSP, such as the Bureau of Diplomatic
Security. As the lead for the BSP, CA/C coordinates funding requirements for CA and 10 other
Department bureaus that receive portions of the visa and other fees CA collects (see the
Appendix for a complete breakdown of FY 2012 consular fees and allocations). In FY 2012,
CA’s share of the $2.5 million in BSP funds was $1.4 million. CA’s fee-based funding structure
requires extensive tracking and reporting of revenues. CA/C/FMD performs traditional budget
formulation and execution responsibilities, including funds availability certification, funds
obligation and control, and voucher examination. The division also is responsible for processing
domestic consular fee refunds. At the time of the inspection, 12 of the division’s 18 authorized
positions were filled.

        The Department recently implemented an initiative to shift from diplomatic and consular
program direct funding to consular fee funding, representing significant process changes for CA,
other Department bureaus, and posts. In FY 2011, CA became a separate billing entity in the
International Cooperative Administrative Support Services (ICASS) program, allowing for
greater transparency in the use of consular fee funding. In FY 2012, CA began allotting BSP
funds directly to posts for the salaries of all consular locally employed staff members rather than
indirectly funding the salaries through the regional bureaus. In FY 2013, CA began direct
allocation to posts of support costs for U.S. consular direct-hire employees.

        These new processes, along with the growth in BSP funding from approximately $700
million in FY 2005 to $2.5 billion in FY 2012, constitute new challenges for CA/C/FMD.
Turnover and staffing shortages have exacerbated these challenges. Since its separation from
CA/EX in 2011, the division has managed to complete its day-to-day work but at a cost.
Although CA/C/FMD customers expressed general satisfaction with the service received, the
inspection team also heard complaints about slow response times. Examples include delayed
release of FY 2014 budget preparation guidance and late approval for travel authorization
funding that resulted in the need to process last-minute emergency travel.

       In an OIG survey, some overseas consular section chiefs complained that CA guidance
was inadequate for the FY 2011 transition to ICASS. To address these concerns, CA/C revamped
its ICASS Web page to improve the quality of information. Also during the inspection, CA/C
met with the ICASS Service Center to plan its first Webinar on ICASS, tentatively scheduled for
April 2013.

        CA/C/FMD is seeking to improve its internal financial and budget record-keeping
system, the Consular Affairs Budget System. The division is working with the Office of
Consular Systems and Technology to upgrade to a Web-based Enhanced Budget System, which
will increase transparency of budget information to customers, including the CA front office and
the passport agencies. The system is more user friendly than the current system and provides
better reporting capability, which will facilitate improved communication with and information
to customers.

                                        6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 3: The Bureau of Consular Affairs should replace its current
       internal financial and budget record-keeping system with a system that increases
       transparency of budget data, is user friendly, and provides improved reporting capability.

         CA/C/FMD is also transitioning to a Web-based Resource Allocation and Budget
Integration Tool to allow posts to plan, track, and report on BSP resources devoted to consular
activities. The division also plans to automate the domestic refunds process using Metastorm, a
business process management software application used throughout the Department, which
should increase efficiencies in this currently manual process. The inspection team supports CA’s
efforts to achieve a more efficient method for processing and tracking refunds.

       Informal Recommendation 4: The Bureau of Consular Affairs should automate the
       domestic consular fee refunds process and include the capability for part of the
       processing to be done at passport and other off-site offices.

Procurement Policy and Oversight

         CA established CA/C/PPOD to provide bureauwide guidance for and oversight of
contractual compliance and procurement-related issues. At the time of the inspection, CA/C had
just filled the division director position, vacant for nearly a year, and was beginning to address
the lack of clarity of CA/C/PPOD’s mission and how staff job responsibilities fit into it. Seven of
CA/C/PPOD’s 14 authorized positions were filled. Five contractors and an intern were providing
support to the staff.

         CA/C/PPOD is implementing new processes, including specific oversight guidelines, to
incorporate new requirements issued by the Office of the Procurement Executive. CA/C/PPOD is
developing a program for CA’s CORs and government technical monitors that is designed to
establish uniform procedures, including training; to create a centralized place for bureau CORs
and government technical monitors to obtain information and guidance on contracting activities;
and to conduct regular oversight of COR activities for the bureau. The division launched a Web
site for this process. CA/C/PPOD staff is also drafting and updating standard operating
procedures.

        CA/C/PPOD is planning to develop a database of all CA contracts. This information will
assist managers to plan for recompetition, extension, or expiration of contracts. The inspection
team concurs with this approach.

       Informal Recommendation 5: The Bureau of Consular Affairs should create an
       automated database in the Procurement Policy and Oversight Division of all bureau
       contracts and use it to track key milestones such as contract period of performance,
       expiration date, and designation of a qualified contracting officer’s representative.

Financial Oversight and Management Reviews

       CA/C/PPOD is also responsible for financial and management controls oversight for CA.
The division performs periodic financial and resource management reviews, coordinates internal
and external audit requests, and monitors aspects of the overseas fee reconciliation process to
ensure accurate collection of consular fees. CA/C/PPOD also coordinates the annual
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

management controls reporting requirements for CA, as part of the Federal Managers’ Financial
Integrity Act. CA adopted an internal review program in September 2011 to increase
transparency and assist bureau management in identifying and mitigating management
vulnerabilities. CA expects to implement best practices identified in these reviews. CA/C/PPOD
recently reviewed machine-readable visa fee reconciliations and allotments and conducted
separate reviews of unliquidated obligations throughout CA and for CA/PPT and Office of
Consular Systems and Technology transactions.

Strategic Policy and Planning

       CA/C/SPPD is responsible for broad policy and resource oversight for CA, including
serving as the lead on bureau strategic planning, interagency coordination, service level
agreements for the BSP, interagency agreements for the Economy Act of 1932, and the Cost of
Service Model. The division also works jointly with CA/C/FMD to formulate and present the
Bureau Resource Request. Seven of the division’s 11 authorized positions were encumbered at
the time of the inspection. Five contractors were assisting with the Cost of Service Model, and
two others were working on activities in support of the division’s strategic planning function.

Cost of Service Model and Economy Act

       Office of Management and Budget Circular A-25 requires that Federal agencies review
biennially the fees they charge their customers. For CA, compliance with this requirement
involves gathering information about the costs of providing consular services globally. CA
created a Cost of Service Model to analyze and store this information, ranging from employee
compensation to the cost of procuring consular supplies. The precision of the model is critical to
ensuring that charges to users are fair and accurate. As the Department moved all the costs
involved in placing and maintaining consular employees overseas from the regional bureaus to
CA, the model’s accuracy assumed greater significance.

        Completion of overdue revisions to the Cost of Service Model was the division’s top
priority at the time of the inspection. In December 2012, a CA/C review uncovered significant
errors in counting cost factors. CA/C is now calculating revised unit costs to incorporate them
into a new fee schedule to reflect more accurately the cost of those consular services. Once the
updates are complete, the Department will publish and seek public comments on the revised fee
schedule in the Federal Register, a process that is likely to take several months.

        CA maintains the Cost of Service Model on a server separate from OpenNet, because CA
has not obtained the necessary OpenNet approvals. This arrangement complicates the process of
entering data into the model, a task that a contractor now completes remotely.

       Informal Recommendation 6: The Bureau of Consular Affairs should obtain the
       required approvals to place its Cost of Service Model on OpenNet by July 1, 2013.

        The Economy Act of 1932, as amended, authorizes Federal agencies to purchase goods
and services from one another on a reimbursable basis. CA/C/SPPD is the lead office for
calculating and negotiating reimbursement under the Economy Act for services consular officers
perform on behalf of other Federal agencies. CA had entered into an interagency agreement with
only one agency: the Department of Homeland Security’s Bureau of U.S. Citizenship and
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Immigration Services, which incurred about $15 million for services rendered in FY 2012. Plans
are underway to negotiate agreements with the Department of Homeland Security’s Bureau of
Immigration and Customs Enforcement, the Social Security Administration, the Federal Bureau
of Investigation, the Department of Justice, and the Department of Veterans Affairs.

        In setting charges for services it provides to other Federal agencies, CA uses its Cost of
Service Model to calculate the cost of labor. The remaining challenge is resolving conflicting
information in CA systems about the number of services performed. The information available in
the Automated Cash Register System is not consistent with the number of services reported in
the Consular Consolidated Database. CA ultimately plans to address this and other problems
related to multiple databases in its Consular One project to unify all consular systems. In the
meantime, CA has instructed posts to use the Automated Cash Register System to track the
workload counts. The inspection team endorses this approach.

Strategic Planning

        The Department initiated a 3-year strategic planning process in 2012 and selected CA as
one of eight functional bureaus to pilot the new process. In May 2012, CA prepared its functional
bureau strategy for FYs 2014–2016. CA/C/SPPD indicated that it coordinated with all CA
directorates to obtain the information needed to prepare the strategy. Even where larger
directorates dedicate staff to planning for future workload, the inspection team concluded that
this function does not duplicate the work of CA/C/SPPD.

        Based on lessons learned from the pilot for the new process, CA leadership decided to
rewrite its functional bureau strategy in 2013 rather than wait until 2015 to make significant
changes. Managers will face difficult decisions about how best to prioritize work in this
understaffed division.




                                        9
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Management Controls
        CA’s annual management controls assurance statement, dated August 22, 2012, identified
one significant deficiency and reported progress toward addressing two previously identified
deficiencies. CA/C drafted the statement and sought contributions from all CA directorates. The
statement identified deficiencies in the automated systems that track visa foil destruction and
access to passport records. New releases of consular automated systems will correct these
deficiencies; CA had already rectified one at the time of the inspection. The third deficiency
involved the Overseas Citizens Services Trust Program, which CA is currently addressing.

        Each assistant secretary is required under 2 FAM 022.8 a. to designate a senior-level
manager to ensure that the Department’s management control program requirements are carried
out in the bureau and to include fulfillment of that responsibility as a critical job element in the
manager’s performance agreement. According to 7 Foreign Affairs Handbook (FAH)-1 H-636,
CA’s Assistant Secretary has overall responsibility for management controls within the bureau,
and CA/EX is the lead office in the bureau for policies and procedures relating to management
controls both within the bureau and for consular sections abroad. This FAH citation predates the
establishment of CA/C and does not reflect how CA currently exercises this function. Selection
of the comptroller position for this function would reflect the responsibility for resource
management assigned to CA/C in the decision documents establishing the office.

Recommendation 3: The Bureau of Consular Affairs should designate the position of the
comptroller as the bureau’s management control coordinator and include that responsibility as a
critical job element in the performance agreement for the comptroller position. (Action: CA)

        All directorates in CA have responsibility for designing internal controls that protect
information and processes from misuse and fraud. A provision of 7 FAH-1 H-624.2-1 requires
overseas posts to submit annual certifications of compliance with consular management controls;
7 FAH-1 H-636 assigns CA/EX responsibility for providing guidance on consular management
controls. The latter regulation is out of date. Although CA/EX and other directorates
appropriately design and administer internal controls programs, CA/C, in its role as the bureau
management control coordinator, has ultimate responsibility for making sure that policy is
coordinated bureauwide and that all CA’s internal controls programs are consistent. Lack of
clarity on who is responsible for management controls could result in confusion or dissemination
of contradictory guidance that wastes time and creates vulnerabilities.

Recommendation 4: The Bureau of Consular Affairs should assign responsibility for
coordinating policy on consular management controls to its Office of the Comptroller and update
the Foreign Affairs Handbook accordingly. (Action: CA)




                                        10
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Consular Affairs should crosswalk all tasks over which
the resource offices share responsibility, or those where responsibility has shifted from one office
to the other, and communicate these roles to stakeholders and customers. (Action: CA)

Recommendation 2: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should reprogram the deputy comptroller position to that of a program
manager for the Border Security Program. (Action: CA, in coordination with DGHR)

Recommendation 3: The Bureau of Consular Affairs should designate the position of the
comptroller as the bureau’s management control coordinator and include that responsibility as a
critical job element in the performance agreement for the comptroller position. (Action: CA)

Recommendation 4: The Bureau of Consular Affairs should assign responsibility for
coordinating policy on consular management controls to its Office of the Comptroller and update
the Foreign Affairs Handbook accordingly. (Action: CA)




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Consular Affairs should assign to the Strategic
Policy and Planning Division responsibility for negotiating and maintaining service level
agreements with other Department of State bureaus for the use of border security funds.

Informal Recommendation 2: The Bureau of Consular Affairs should structure staff in the
Financial Management Division to include a GS-14 supervisory budget analyst with
responsibility for budget formulation and the overseas portfolio.

Informal Recommendation 3: The Bureau of Consular Affairs should replace its current
internal financial and budget record-keeping system with a system that increases transparency of
budget data, is user friendly, and provides improved reporting capability.

Informal Recommendation 4: The Bureau of Consular Affairs should automate the domestic
consular fee refunds process and include the capability for part of the processing to be done at
passport and other off-site offices.

Informal Recommendation 5: The Bureau of Consular Affairs should create an automated
database in the Procurement Policy and Oversight Division of all bureau contracts and use it to
track key milestones such as contract period of performance, expiration date, and designation of
a qualified contracting officer’s representative.

Informal Recommendation 6: The Bureau of Consular Affairs should obtain the required
approvals to place its Cost of Service Model on OpenNet by July 1, 2013.




                                       12
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                     Name      Arrival Date
Comptroller (Acting)                                        Rachel M. Arndt           10/12
Division Chiefs:
  Financial Management                                   Tracy L. Henderson            6/07*
  Procurement Policy and Oversight                         Barnaby J. Walsh             2/13
  Strategic Policy and Planning                            Jonathan A. Parks            1/13

*Held position as director of Resource Management Division in CA/EX prior to formation of
CA/C.




                                     13
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BSP              Border Security Program

CA               Bureau of Consular Affairs

CA/C             Bureau of Consular Affairs, Office of the Comptroller

CA/C/FMD         Bureau of Consular Affairs, Office of the Comptroller, Financial
                 Management Division

CA/C/PPOD        Bureau of Consular Affairs, Office of the Comptroller,
                 Procurement Policy and Oversight Division

CA/C/SPPD        Bureau of Consular Affairs, Office of the Comptroller, Strategic
                 Policy and Planning Division

CA/EX            Bureau of Consular Affairs, Office of the Executive Director

COR              Contracting officer's representative

Department       Department of State

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

GSS              Global Support Strategy

ICASS            International Cooperative Administrative Support Services

OIG              Office of Inspector General




                            14
                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Appendix: FY 2012 Consular Fees Collected and Allocated




(The above pie chart shows the breakdown of the $3.1 billion total consular fees collected and
allocated in FY 2012: Treasury, $688,340,000; Consular Affairs, $1,528,382,881; Other Fees-
Diversity Visa and Affidavit of Support, $37,000,000; IT Central Fund-Passport Expedite,
$184,875,653; Resource Management-American Salaries, $433,508,000; Foreign Service
Institute-Consular Training, Conferences, and Workshops, $7,054,000; OBO-Residential Leases
and Facilities, $205,394,500; Bureau of Administration-Domestic Facility Operations,
$120,674,000; Diplomatic Security-Guards at Passport Agencies and Visa and Passport
Investigations, $59,915,000; Prior Year Carryover Impact, $267,866,653; Information Resource
Management-Systems Technology to Support CLASS/Namechecks, $21,800,000; Regional
Bureaus-Overseas Program Support, $122,092,619.)




                                      15
                          SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
